<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 115-209]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-209

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 25, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











        Available via the World Wide Web: http://www.govinfo.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-804 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
           
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 25, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                        PRESIDENTIAL NOMINATIONS

Jeffery Martin Baran to be a Member of the Nuclear Regulatory 
  Commission.....................................................    15
Paul Trombino III to be Administrator of the Federal Highway 
  Administration.................................................    16
David Ross to be an Assistant Administrator of the Environmental 
  Protection Agency..............................................    17
Matthew Z. Leopold to be an Assistant Administrator of the 
  Environmental Protection Agency................................    18
William L. Wehrum to be an Assistant Administrator of the 
  Environmental Protection Agency................................    19
Michael Dourson to be Assistant Administrator for Toxic 
  Substances of the Environmental Protection Agency..............    20

 
                            BUSINESS MEETING

                              ----------                              


                      WEDNESDAY, OCTOBER 25, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Building, Hon. John Barrasso (Chairman of 
the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Moran, Rounds, Ernst, Sullivan, 
Shelby, Cardin, Whitehouse, Merkley, Gillibrand, Markey, 
Duckworth, and Harris.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. I call this meeting to order. I thank 
everyone for coming.
    Today we will consider four nominees to serve as Assistant 
Administrators for the Environmental Protection Agency. This 
includes President Trump's nomination of Michael Dourson to 
head the EPA's Office of Chemical Safety and Pollution 
Prevention, William Wehrum to be the EPA's Office of Air and 
Radiation Director, Matthew Leopold to head the EPA's Office of 
General Counsel, and David Ross to lead the EPA's Office of 
Water.
    These nominees have proven themselves to be well qualified, 
experienced, and dedicated public servants. Their confirmation 
will fill critically important roles in ensuring that all 
Americans benefit from clean air, clean water, and clean land. 
I urge all my colleagues to support the nominations.
    We also will consider the nominee to serve as the 
Administrator of the Federal Highway Administration of the 
United States Department of Transportation. Paul Trombino is 
well qualified and brings broad experience--over 20 years of 
experience--as a State and national transportation leader, to 
the critically important role of maintaining and improving our 
nation's roads, highways, and bridges.
    I commend President Trump for nominating such a highly 
accomplished and dedicated public servant to serve in this 
important position. I urge all my colleagues to also support 
Mr. Trombino's nomination.
    Finally, we will consider the nomination of Jeffery Baran 
to serve another term as a member of the Nuclear Regulatory 
Commission.
    I would like to call on Ranking Member Carper and recognize 
him for an opening statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman.
    We are meeting here today to consider several very 
important nominations. First, I want to thank the Chairman, our 
friend, John Barrasso, for working to advance the re-nomination 
of Jeff Baran to continue to serve on the Nuclear Regulatory 
Commission. I am hopeful that the Senate will soon be able to 
act on Mr. Baran's nomination along with the names of two 
Republican nominees for the NRC that this Committee advanced 
back in June, so that the Commission will once again have a 
full quorum.
    Before turning to the nominees before us, I would be remiss 
if I did not reiterate once again the continued frustration and 
disappointment of the Democrat members of this Committee with 
the Environmental Protection Agency's responses or lack thereof 
to many of our congressional oversight requests. Of the 26 
letters that members of this Committee's minority have sent to 
Administrator Pruitt, to request information since March of 
this year, only 9 have received complete years. That is 9 
letters over 7 months.
    I know that some say that batting .350 isn't bad, but in 
truth, Mr. Pruitt is capable of doing a whole lot better. After 
all, it took him just 48 hours earlier this month to provide a 
substantive written response to our friend and colleague from 
Iowa, Senator Ernst, with respect to the renewable fuel 
standard. Forty-eight hours. He can do this. I think most of us 
know that.
    To be fair, though, I should note that of late, EPA has 
made some modest progress in responding to Committee Democrats. 
Largely for this reason, I will not object to a voice vote on 
the two last controversial EPA nominees, whose nominations I 
plan to support in today's Committee vote, Matt Leopold and 
David Ross. I also welcome the opportunity to support the 
nomination of Paul Trombino to serve as our Administrator of 
the Federal Highway Administration.
    I have no interest in delay for delay's sake. I do have an 
abiding interest, however, in ensuring that the oversight 
requests of our Republican and Democrat Senators receive the 
timely responses that they deserve. I believe I also speak for 
every Democrat on this Committee, and I suspect more than a few 
Republicans, in saying that this Committee has a legitimate 
interest in Administrator Pruitt testifying before us soon, 
something he hasn't found time to do in almost 9 months 
subsequent to his nomination hearing.
    Now, let me turn to the business before us today. Today we 
meet to consider the nomination of six individuals. Two of 
those nominations cause me and a lot of other people in this 
body and in this country grave concern. One of those 
individuals is Bill Wehrum, a Delawarean, the nominee to head 
EPA's Air Office.
    In 2005 I voted against Bill Wehrum, because I feared he 
would impede efforts to clean up air and protect the health of 
Americans. Sadly, my fears were not misplaced. One decade 
later, after reviewing Mr. Wehrum's record, talking to him in 
person, riding on the train with him yesterday to Washington, 
DC, as I was listening and reading his answers to questions 
posed during the hearing process, I regret to say that my 
position has not changed.
    Mr. Wehrum was evasive on many of the questions asked of 
him, even conveniently forgetting a case that he worked on in 
opposition to the Renewable Fuel Standard. What was clear, 
however, in the answers that he did give, and in his 
conversation with me, is that the public health does not appear 
to be one of his principal concerns. In fact, when asked to 
list the Clean Air Regulations that he does support, he 
answered with these words, ``I represent clients in private 
practice. It is my legal and ethical duty to zealously 
represent their interests.''
    Whether the pollutant is carbon or mercury or silica or 
other toxic substances, Mr. Wehrum has continued to side with 
polluters over science and doctors almost every time. As I said 
in his hearing, Mr. Wehrum is not a bad person. I think he is a 
good person. Regrettably, I don't believe he is the right 
person for this position.
    With that said, that brings me to the most troubling 
nominee before us today, at least for me. In fact, he is one of 
the most troubling nominees I have ever considered during my 17 
years on this Committee, Michael Dourson. In 2016 many members 
of this Committee--Democrat and Republican alike--came together 
to finally pass badly needed reforms to the Toxic Substances 
Control Act, after working to find common ground literally for 
years. Across the board, stakeholders enthusiastically 
supported our efforts because they saw the need for a credible, 
impartial, and strong chemical regulator at EPA who could 
provide certainty and predictability for businesses and others, 
while also inspiring public confidence in the safety of the 
products that families use every day.
    Unfortunately, the nomination of Michael Dourson to lead 
the EPA's Chemical Safety Office and implement TSCA reform 
makes a mockery of the entire process of which we were so 
proud. Dr. Dourson's record is clear: throughout much of his 
career, Dr. Dourson has essentially sold his science to the 
highest bidder and recommended standards for toxic chemicals 
that were tens, hundreds, sometimes even thousands of times 
less protective than EPA's own standards--less protective.
    Dr. Dourson had the opportunity to address some of our 
fears in response to our questions for the record. Instead, he 
did just the opposite. For example, he did not answer a single 
one of the eight questions for the record that I asked him with 
respect to TSCA implementation. Not one. He would not describe 
how he thought EPA should protect people from exposure to 
dangerous chemicals. Yet he wants to be the person who is 
charged with the job of protecting Americans from dangerous 
chemicals.
    Can this be the best person the Administration can find to 
entrust the responsibilities of this critical leadership post? 
God, I hope not.
    And then to learn last week that Dr. Dourson, who 
throughout this process and during his hearing presented 
himself as a member of the University of Cincinnati faculty, is 
already working at EPA further underscored that we would be 
foolish to expect any straight answers from this nominee.
    But it is really what Dr. Dourson didn't say at his hearing 
or in his answers to our questions that is most disturbing to 
me. When confronted time and again with stories of real people 
who have been harmed, some irreparably, by the chemicals he 
peddled as safe, Dr. Dourson never admitted that he may have 
been wrong. Nor did he acknowledge the risk that these 
chemicals can pose.
    I remind us all that this man is being considered for a 
position in which he would be entrusted to help protect the 
health and safety of millions of American people. But not once 
did he make it clear that he understood that his determination 
could be a matter of life or death for unsuspecting Americans.
    This is not just another nomination of Donald Trump. This 
nominee is not just up for any job at the EPA. The work done in 
the agency's Chemical Safety Office has a further reach than 
most Americans will ever realize. Its work determines whether 
the products we use to clean our kitchen counters are safe. It 
determines whether the toys our children and grandchildren play 
with or the bottles they use or the water they drink are free 
of chemicals that may hurt or harm them in their development.
    There is a sense of moral obligation that whoever holds 
this job must feel. It is not enough to hold a Ph.D. It is not 
enough to be a scientist. It is not enough to have a good 
brain. It is also important that this person have a good heart 
and a conscience and an earnest desire to protect the people we 
all serve. Confirming the wrong person for this office can 
leave a generation or more of Americans at risk for dealing 
with irreversible consequences for the rest of their lives.
    This morning I especially want to appeal to my colleagues 
who have worked so hard in recent years to craft and pass TSCA 
legislation. Voting to confirm Michael Dourson is a vote to 
negate that hard fought victory. We put politics aside then to 
do the right thing for the country; we have a chance to do that 
again today. I am afraid if we don't, our efforts will largely 
have been for naught.
    Let me just say, yesterday I visited with the Chairman. We 
talked about a recent visit he took to Yale, where he spoke on 
leadership. We have all talked a fair amount of leadership, I 
used to give speeches on leadership. When I talk about 
leadership, I talk about my moral compass. It starts out with 
figure out the right thing to do, and just do that, not the 
easy or the expedient thing to do.
    Well, the easy thing to do probably for some of us today 
would be to go ahead and vote and report him out of Committee. 
I don't think that is the right thing to do. I hope if you 
think that way, too, you won't do it. We will send his 
nomination back to this President and say, send us somebody 
better prepared. I think it has become clear in the past 
several weeks to most of us that Michael Dourson will not be 
the credible regulator that we envisioned when we wrote the 
TSCA law. He is most certainly not the one that the American 
people need. We can do better than this. A lot of people across 
this country are counting on us to do just that.
    Please join me in rejecting this nomination. Thank you.
    Senator Barrasso. Thank you very much.
    Yes, Senator Cardin, we are still waiting for one more 
member to vote. Once we get the quorum here to have the vote, 
we will move to the vote.
    Senator Cardin.
    Senator Cardin. Mr. Chairman, I understand the urgency, I 
know we have a vote at 10:30. I just hope the members will have 
a chance to talk. We have a reasonable Committee, and I am 
hoping that we can reach a consensus on Mr. Dourson and not 
report him out of our Committee. I am going to make a plea to 
my Republican colleagues.
    This is an area that Democrats and Republicans worked 
together to reform the TSCA law. It was not easy. I applaud 
Senator Vitter and Senator Udall for bringing us together. 
There are others on the Committee that took leadership roles 
when it was controversial to deal with toxic substance reform. 
And we came together with an agreement on how we can move 
forward so the law can work.
    Mr. Dourson does not represent a person who can carry out 
the work of this Committee in the TSCA reform legislation we 
passed. This Committee has a proud record. We are an 
independent branch. We should be exercising independent 
judgment on nominations. This person--if confirmed, you are 
putting the fox in the hen house. You know that.
    He has represented a side that has misrepresented the 
dangers of chemicals. I have heard that directly from our 
leadership, from Professor Rena Steinzor at the University of 
Maryland, where she tells me the group that Mr. Dourson formed 
is known for the whitewashing of work of the industry during 
public health regulatory procedures.
    I could talk about one specific substance that is important 
to me in Maryland, TCE, which has been found in unsafe levels 
at Maryland's Eastern Shore. E&E News Greenwire reported that 
Mr. Dourson's TCE study, which was funded by the American 
Chemistry Council, found the safety range for exposure to TCE 
was 3 to 30 times higher than the level recommended in 2014.
    Mr. Chairman, if we are going to be able to continue to 
work together on setting a framework of laws that are 
bipartisan and can be implemented for the health of the people 
of this country, then let us exercise independent judgment as 
to who is the head of that responsibility that we confirm, that 
this Committee recommends to the Senate to confirm.
    I can't believe that this will go down to a party line 
vote. Because if it does, I think it doesn't bode well for the 
bipartisan cooperation in this Committee to pass legislation 
that we expect to be implemented in the manner in which it was 
negotiated in this Committee.
    Senator Barrasso. Thank you, Senator Cardin.
    We have enough members who have now arrived, I'd like to 
move to the votes. But we will stay here after the votes, so 
that every member can be heard. Then we have a roll call vote 
in the full Senate at 10:30, and we have a full hearing 
scheduled on wildfires. Then we will resume with that hearing 
when we come back, after everybody has been heard on the 
nominees.
    So now that enough members have arrived, I would like to 
move the votes on the agenda. We will defer additional 
statements until the end of the meeting. The Ranking Member and 
I have agreed to bring up the nominees to lead the EPA's Office 
of Chemical Safety and Pollution Prevention, as well as the 
EPA's Office of Air and Radiation for separate votes. And the 
Ranking Member has requested that each of these nominees 
receive a roll call vote.
    The Ranking Member and I have agreed to vote on the 
remaining nominees en bloc by voice vote, but members may 
choose to have their votes recorded for a specific nominee in 
that bloc after the voice vote.
    So to begin, I call up Presidential Nomination 784, Michael 
Dourson of Ohio to be Assistant Administrator for the Office of 
Chemical Safety and Pollution Prevention of the EPA. I move the 
approval and report the nomination favorably to the Senate.
    Is there a second?
    Senator Inhofe. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Carper. No by proxy.
    The Clerk. Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Ms. Capito.
    Senator Capito. Yes.
    The Clerk. Mr. Cardin.
    Senator Cardin. No.
    The Clerk. Mr. Carper.
    Senator Carper. No.
    The Clerk. Ms. Duckworth.
    Senator Duckworth. No.
    The Clerk. Ms. Ernst.
    Senator Ernst. Yes.
    The Clerk. Ms. Fischer.
    Senator Fischer. Yes.
    The Clerk. Ms. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Ms. Harris.
    Senator Harris. No.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. No.
    The Clerk. Mr. Merkley.
    Senator Merkley. No.
    The Clerk. Mr. Moran.
    Senator Moran. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. No.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    The Clerk. Mr. Chairman, the yeas are 11, the nays are 10.
    Senator Barrasso. We have approved the nomination of Dr. 
Dourson to be Assistant Administrator of the Environmental 
Protection Agency, which will be reported to the full Senate 
for approval.
    I would like to now bring up Presidential Nomination 994, 
William Wehrum of Delaware, to be Assistant Administrator of 
the Office of Air and Radiation of the Environmental Protection 
Agency. I move to approve and report the nomination favorably 
to the Senate.
    Is there a second?
    Senator Inhofe. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Carper. No by proxy.
    The Clerk. Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Ms. Capito.
    Senator Capito. Yes.
    The Clerk. Mr. Cardin.
    Senator Cardin. No.
    The Clerk. Mr. Carper.
    Senator Carper. No.
    The Clerk. Ms. Duckworth.
    Senator Duckworth. No.
    The Clerk. Ms. Ernst.
    Senator Ernst. Yes.
    The Clerk. Ms. Fischer.
    Senator Fischer. Yes.
    The Clerk. Ms. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Ms. Harris.
    Senator Harris. No.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. No.
    The Clerk. Mr. Merkley.
    Senator Merkley. No.
    The Clerk. Mr. Moran.
    Senator Moran. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. No.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    The Clerk. Mr. Chairman, the yeas are 11, the nays are 10.
    Senator Barrasso. We have approved the nomination of Mr. 
Wehrum to be the Assistant Administrator of the EPA, which will 
be reported to the full Senate for approval.
    I would now like to call us Presidential Nominations 901, 
Matt Leopold of Florida to be Assistant Administrator for the 
EPA's Office of General Counsel; 902, David Ross of Wisconsin 
to be the Assistant Administrator of the EPA's Office of Water; 
1010, Paul Trombino III of Wisconsin to be Administrator for 
the Federal Highways Administration; and number 900, Jeffery 
Baran of Virginia to be a member of the Nuclear Regulatory 
Commission, en bloc.
    I move to approve and report Presidential Nominations 901, 
902, 1010, 900 and favorably report to the Senate.
    Is there a second?
    Senator Inhofe. Second.
    Senator Barrasso. All those in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, no.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. We have now approved the nominations of Mr. Leopold, 
Mr. Ross, Mr. Trombino, and Mr. Baran, which will be reported 
to the full Senate for approval.
    The voting party of the business meeting is finished, but I 
am happy to recognize any member--I think Senator Whitehouse 
was first--who wishes to make a statement on any of the 
nominations. With that, the business meeting will be concluded, 
and then we will resume with our hearing. The roll call vote is 
at 10:30; we can go vote and return, then start the full 
hearing right after the 10:30 vote. I will be there for the 
beginning of the vote and then get back here.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Let me first say that it is a very different thing to be 
allowed to speak after a vote has been taken than to have the 
opportunity to try to convince your colleagues before the vote 
is taken. It is a signal to me that this process is simply not 
on the up and up. We ought to, on nominees as controversial as 
these, at least have the Committee have a fair chance to try to 
convince colleagues before the vote is taken. If the majority 
then wants to ram them through, fine. But we should at least 
have that chance.
    With respect to Mr. Dourson, I think we have a particular 
problem. On our side, I think we have gradually become 
accustomed to nominees with massive conflicts of interest, 
having those conflicts of interest overlooked, and having them 
rammed through on purely partisan votes, irrespective of 
failure to answer questions, irrespective of massive conflicts 
of interest, irrespective of failures to disclose huge dark 
money operations, irrespective of things that in a better day 
and in a better Senate would be fatal to the nominees.
    But with Dourson, it is a little different. Because we just 
worked together in bipartisan fashion to do something about 
toxic chemicals. Both sides gave, and we came to what I think 
was a reasonable, fair, and productive result. My opinion is 
that today's vote breaches the faith of that result. As far as 
I am concerned, whatever I can do to restore the power of 
States to regulate in this space, I will do until we get back 
to a place where the spirit and the balance of what we agreed 
to is what actually comes out of the EPA.
    I think that we have been double dealt here, and I regret 
it. I think it is particularly inappropriate in the context of 
the recent bipartisan passage of TSCA.
    And if I could say one last thing that has to do with my 
home State; my home State wraps around Narragansett Bay. 
Narragansett Bay is an extraordinarily significant estuary to 
my home State. We have a Narragansett Bay estuary program that 
runs in my home State to try to make sure that we are taking 
good care of Narragansett Bay and that we understand what is 
happening in Narragansett Bay.
    There is a Narragansett Bay estuary program conference that 
was scheduled for Monday. We have participated with EPA 
scientists in this Narragansett Bay estuary program throughout. 
They have been important and valued parts of the work that has 
been done by the Narragansett Bay estuary program. At some time 
just shortly before the conference on Monday, the EPA 
scientists were instructed to stand down and forbidden to speak 
at the conference.
    Now, one thing is clear. They were going to have to talk 
about climate change. Climate change is affecting Narragansett 
Bay. Our mean winter water temperature is up 3 to 4 degrees; 
our winter flounder fishery is shot. Our water levels have 
raised 10 inches since the hurricane of 1938. Fishermen see it, 
coastal resources managers see it, municipal coastal 
communities see it. To overlook climate change in any 
conversation about Narragansett Bay would be preposterous.
    It is equally preposterous, in my view, to have an 
administration that silences and censors its scientists and 
refuses to let them participate in multi-State, Federal-State 
partnerships, because they will be obliged to have a talk about 
climate change. I grew up in the Foreign Service. My family 
spent time in countries where the government would do things 
like that, tell scientists what they could and could not say.
    Mr. Chairman, I don't know when the point will come when 
anybody in the majority will say, enough about what is 
happening at the EPA. But I would hope that silencing 
scientists and telling them that they may not speak on the 
matters to which they have dedicated their lives because 
climate change is going to be discussed might just be that 
line.
    I will ask that we try to explore what the hell happened in 
that incident. At the moment we have a very bad record of 
getting any mail answered by the EPA. It may take some 
bipartisan effort. I would hope that the Chairman would at 
least indulge us in getting basic questions answered as to why 
EPA scientists were forbidden to participate in a scientific 
conference.
    With that, I yield my time.
    Senator Barrasso. Thank you.
    Senator Duckworth. Thank you, Mr. Chairman.
    I have gone through this nomination and confirmation 
process when I served as Assistant Secretary in the Department 
of Veterans Affairs. I understand that process. And in 
navigating it, I did my best to always respond to each 
Senator's questions fully and honestly. It is one of the 
reasons why I have been so dismayed by the nomination of Bill 
Wehrum to serve as Deputy Administrator of the EPA.
    I am concerned that during this process, Mr. Wehrum 
mischaracterized his records on the bipartisan Renewable Fuel 
Standard program when he testified, as well as in his written 
responses. He claimed to be unfamiliar with the RFS, despite 
having led litigation related to the program for organizations 
like the American Petroleum Institute at least four times. I 
don't understand why we wouldn't have simply halted his 
nomination until after the critical RFS rulemaking on volume 
obligations and the point of obligation is completed in the 
coming weeks.
    If Mr. Pruitt truly kept his promise, then we could have 
brought up his nomination after the rulemaking was completed. 
Instead, the majority is relying on written promises of 
questionable legality that can easily be challenged in court. 
There simply was no need to risk devastating communities 
throughout the Midwest by rushing Mr. Wehrum's nomination.
    Now I come to Mr. Dourson. Fighting for those who have 
served our country has been my life's work. I cannot believe 
that the Commander in Chief of our military would nominate 
someone like Dr. Michael Dourson, an individual who has 
defended the safety of chemicals linked to high cancer rates in 
service members and veterans. Four hundred military bases right 
now are being tested by the military. All over this country, of 
27 bases in 16 States, they have confirmed contaminants in the 
soil.
    Yet the President has nominated Dr. Dourson, a man who has 
been paid to falsely claim that dozens of dangerous chemicals 
are safe for common use and helped block EPA's efforts to 
regulate them. These chemicals have been associated with 
causing adverse health effects like cancer, birth defects, and 
developmental problems in children, among those of our military 
families. Simply put, our troops deserve better.
    This includes service members at places like Camp Lejeune 
in North Carolina, where TCE contamination in drinking water 
has been linked to high rates of cancers like leukemia. It 
includes places like the former George Air Force Base in 
California and Hill Air Force Base in Salt Lake City. You 
probably have one in your State.
    And yet we move forward with a man whose sole purpose has 
been to sell junk science to support the polluters. Simply 
unacceptable. Protecting our families, service members, and 
veterans should not be a partisan issue. But it was just made 
so today with his move in Committee.
    I hope that all of my colleagues would join me in fighting 
to block Dr. Dourson's confirmation. It is the absolute worst 
person I can think of to be put in charge of chemical and 
toxics safety in this country. Thank you.
    I yield back, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Duckworth.
    Senator Harris.
    Senator Harris. Thank you, Mr. Chairman. Before I arrived 
in the U.S. Senate, I was Attorney General of California. I got 
a call from then-Senator Barbara Boxer informing me about the 
bipartisan work of this Committee on TSCA. We talked at length, 
and our teams talked at length about the significance and 
importance of that piece of legislation. I was proud to support 
it as Attorney General of California.
    My predecessor, Senator Boxer, was extremely proud and in 
fact, said to me, you will enjoy being a part of this 
Committee. Because on the most fundamental issues, like toxic 
substances, it is non-partisan, the work that we do. I was 
eager, for that reason, to be a part of this Committee.
    The vote I witnessed this morning is so troubling to me. 
And really, it was painful to watch. Because I sat in this 
committee hearing when we reviewed these two nominees, Mr. 
Dourson and Mr. Wehrum. I observed their testimony, I read 
their backgrounds. I studied the briefings. They so clearly are 
conflicted on the issues that they are now going to be in 
charge of making decisions on that will impact directly the 
American public and some of the most vulnerable members, 
children, seniors, those who are susceptible to all the toxins 
and pollutants, that they have for so long advocated are 
harmless.
    I find this outrageous. I find it outrageous. We are at a 
moment in time in our country where the American public is so 
distrustful, like never before, of their Government and its 
leaders. They are cynical. The vote that I witnessed this 
morning gives them reason to be cynical.
    On the issue of California, I asked Mr. Dourson if he would 
be willing to recuse himself because of his clear conflicts. He 
refused. Mr. Wehrum, I asked would he commit to upholding the 
waiver that courts have upheld, allowing California to have 
high standards as it relates to its greenhouse gas program for 
motor vehicles. It was upheld during the Bush administration 
and beyond. And he refused.
    There is good, sound reason beyond who appointed these 
nominees, very sound reason to have rejected in a bipartisan 
way these nominations. Unfortunately, this Committee made a 
decision that was clearly partisan. I think it is a sad day for 
this Committee. Thank you.
    Senator Barrasso. Thank you very much, Senator Harris.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman.
    I am profoundly disappointed in what happened today. I 
think part of leadership is putting yourself in other people's 
shoes. My Republican colleagues would be very upset if they had 
answers like the answers we received from Dourson and Wehrum. 
The basic questions that we asked, such as can you summarize 
the hazards of flame retardants, the answer was, it would be 
inappropriate for me to comment on a toxic chemical. Is that an 
answer for somebody who is going to be in the role, and there 
is a huge amount of scientific evidence that even just a short 
summary, many flame retardants have been removed because of 
those studies that show their direct link to cancer. And the 
challenge is that they are in our carpets, and our babies have 
their noses inches from the carpet. So from the very first days 
of life, they are getting filled with cancer causing chemicals, 
chemicals that don't actually decrease the flames. This is a 
widely, widely known, examined topic. That was Dourson.
    And for Wehrum to say, I don't even have the time to look 
at a chart and comment on it, that is his answer. Mr. Chairman, 
you would be complaining a lot if you got those answers.
    And here we have something; finally this Committee did 
something very bipartisan. Senator Lautenberg threw his heart 
into it, Senator Udall, who is no longer on the Committee, 
threw his heart into it. Many of us had a massive amount of 
time dedicated to it, on both sides of the aisle. We did 
something that nobody thought we could do, and yet you as 
Chairman have just let that process be completely sabotaged.
    Leadership is required for us to be able to work on behalf 
of the American people. What happened at this moment really is 
a betrayal of everyone's bipartisan effort from these years 
past. I hope we can do better.
    Senator Barrasso. Thank you, Senator Merkley.
    The roll call vote has started.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    This is one of the low points of my entire career in the 
House of Representatives and the U.S. Senate. It is largely 
because we are forgetting the lessons of history. We have 
already gone through this once; now we are repeating it. When 
Ronald Reagan was named President, he then sought someone at 
the EPA who would undermine its agenda.
    When John Hernandez, who was one of the two finalists, 
wrote his biography, he said that he asked by the vetters of 
the Reagan administration, if he was named head of the EPA, 
would he bring the EPA to its knees. He said it was a 
breathtaking question. He didn't know how to answer. He said in 
his biography, it was with the greatest relief that he then 
learned, within the next month, that it was going to be Anne 
Gorsuch, and not him, who got the post. Subsequently, Rita 
Lavelle, who was named as head of the Superfund program, she 
wound up in prison for violation of the law.
    What we are seeing here is a repetition of that history. 
What we are seeing is a group of people who are clearly trying 
to turn the EPA into every polluter's ally being confirmed by 
the Committee with responsibility for the environment.
    It is absolutely immoral for this Committee or this Senate 
to confer people with a known animosity toward putting in place 
standards which protect the public health of our country. Mr. 
Dourson and the organization he has led, known as Toxicology 
Excellence for Risk Assessment, have been routinely paid and 
funded by chemical companies and polluters defending the need 
for weakened chemical safety standards. Those same chemicals 
that Dr. Dourson has been paid to defend will be in front of 
the Office of Chemical Safety at the EPA for evaluation during 
his term at the agency. Yet he has refused to recuse himself 
from this work.
    In fact, when asked if Dr. Dourson will avoid actively 
working to weaken EPA standards of safety, he stated he would 
bring his ``new science'' to the agency. Well, that new science 
has already prejudged the defense of these chemicals and has 
come to conclusions that are fundamentally threats to the 
health and safety of the American public.
    Dr. Dourson has built a career of being a lawyer defending 
chemical companies and will now be in a position to be asked to 
also serve as the judge of the safety of these same chemicals. 
Chemical safety is an oxymoron for Michael Dourson. No limit is 
too high, no risk is too great. His position on the safety of 
toxic chemicals is so far out of the scientific mainstream, it 
just isn't an outlier--it is outrageous.
    I am afraid that Dourson has never met a chemical he 
doesn't like. Putting him at the helm of the Office of Chemical 
Safety would be tantamount to giving the fox complete access to 
the hen house. He is unqualified to protect the health of the 
American people. I oppose his nomination.
    The same is true for William Wehrum. He as well is, for all 
intents and purposes, a denier of science. He is someone who 
has already prejudged the issues of climate change and other 
issues of science that go right to the core of the jurisdiction 
of this Committee and the responsibility which we have to 
protect the public health and safety of our country.
    So for me, I see us beginning a very rapid descent into a 
destruction of the code of safety which we--on a bipartisan 
basis--put in place last year. And it is a sad day when the 
illusion of bipartisanship is replaced by the reality of the 
chemical industry taking over the agenda of the relationship 
between the American people and carcinogenic chemicals that can 
harm their families. It is a sad day, Mr. Chairman. I think 
this day is going to live in infamy in terms of the 
relationship that our country has with the chemicals that 
pervade every single aspect of their lives.
    I think that the ``no'' vote that the minority cast will 
come to be viewed as the historically correct position.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Markey.
    Senator Carper.
    Senator Carper. Mr. Chairman, before we adjourn, I would 
just ask for another minute or so. You and I are pretty good 
friends, I think really good friends. I value your friendship 
and your leadership. I have never been this troubled on this 
Committee or any committee in 17 years. We have not done the 
right thing. We have done the wrong thing.
    There are some who will look at this markup today and say, 
well, the Republicans won. We could also say, you can win the 
battle but you may not win the war. Winston Churchill said 
during World War II, when he spoke of the onslaught of the 
Germans, and his efforts to lead his country and their defense, 
he said of the Germans, ``We will fight them on the sea, we 
will fight them in the air, we will fight them under the sea, 
we will fight them on our beaches, in our forests, in our 
streets. We will never give up.''
    I will tell you this. On the nomination of Michael Dourson, 
we will never give up in opposition to it. Thank you.
    Senator Barrasso. Thank you.
    We are now into the roll call vote on the floor. This 
business meeting is adjourned. We will return in about 5 to 10 
minutes to begin the hearing and the business of today.
    [Whereupon, at 10:40 a.m., the business meeting was 
adjourned.]
    [Additional material submitted for the record follows:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
                                 [all]




</pre></body></html>
